LEGAL PRINTERS

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

September 28, 2021
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE NO. 20-828:

FEDERAL BUREAU OF INVESTIGATION, ET AL. V. YASSIR FAZAGA, ET AL.

Dear Sir or Madam:
I hereby certify that at the request of counsel for Amici Curiae Brennan Center for
Justice, Due Process Institute, Electronic Privacy Information Center, FreedomWorks
Foundation, and TechFreedom on September 28, 2021, I caused service to be made pursuant
to Rule 29 on the following counsel for the Petitioners and Respondents:
J. Stephen Tidwell and Barbara Walls:
Catherine Mary Agnes Carroll
Wilmer Cutler Pickering Hale and Dorr
1875 Pennsylvania Avenue, NW
Washington, DC 20006
202-663-6000
catherine.carroll@wilmerhale.com

PETITIONERS:
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
RESPONDENTS Yassir Fazaga, et al.:
Ahilan T. Arulanantham
UCLA School of Law
385 Charles Young Drive East
Los Angeles, CA 90095
310-825-1029
arulanantham@law.ucla.edu

Paul Allen, Kevin Armstrong, and
Pat Rose:
Alexander Howard Cote
Winston & Strawn LLP
333 S. Grand Avenue, 38th Floor
Los Angeles, CA 90071
213-615-1993
acote@winston.com

This service was effected by depositing three copies of the Brief of Amici Curiae
Brennan Center for Justice, Due Process Institute, Electronic Privacy Information Center,
FreedomWorks Foundation, and TechFreedom in an official “first class mail” receptacle of the
United States Post Office as well as by transmitting a digital copy via electronic mail.
Sincerely,
Jack Suber, Esq.
Principal
Sworn and subscribed before me this 28th day of September 2021.

